<html>
<title> - ANNUAL OVERSIGHT OF THE SMITHSONIAN INSTITUTION</title>
<body><pre>[Senate Hearing 116-20]
[From the U.S. Government Publishing Office]






                                                         S. Hrg. 116-20

                        ANNUAL OVERSIGHT OF THE
                        SMITHSONIAN INSTITUTION

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  Available on http://www.govinfo.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
35-990                    WASHINGTON : 2019                 


























                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
              Elizabeth Peluso, Democratic Staff Director


























                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Dr. David J. Skorton, Secretary, The Smithsonian Institution, 
  Washington DC..................................................     2

                         Prepared Statement of:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...    19
Dr. David J. Skorton, Secretary, The Smithsonian Institution, 
  Washington DC..................................................    21

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Dr. David J. Skorton, Secretary, The Smithsonian 
  Institution, Washington DC.....................................    27
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Dr. David J. Skorton, Secretary, The Smithsonian Institution, 
  Washington DC..................................................    43

 
                        ANNUAL OVERSIGHT OF THE
                        SMITHSONIAN INSTITUTION

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                              United States Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Fischer, and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. I want to thank my colleagues who will be 
joining us shortly and particularly thank Senator Cortez Masto 
who does a great job attending these oversight hearings, and 
others, Senator Klobuchar and others, will be here very soon.
    I want to welcome our witness today, Dr. David Skorton, the 
Secretary of the Smithsonian Institution. Thank you Dr. Skorton 
for joining us. The Congress established the Smithsonian in 
1846. It was a bequest by British scientist James Smithson, who 
generally left his estate to a country he had never visited, 
the United States. The purpose was to found an establishment 
for the increase and diffusion of knowledge.
    So here we are almost 175 years later, the Smithsonian is 
now the world's largest complex of 19 museums, numerous global 
research and educational facilities, a zoological park, and a 
growing collection of 155 million objects and specimens. Dr. 
Skorton, the 13th Secretary of the Smithsonian Institution has 
guided the Smithsonian through several important milestones, 
including the 2016 opening of the National Museum of African 
American History and Culture. A successful fundraising campaign 
that raised nearly $2 billion. He has also started 
implementation of the strategic plans for the institution, and 
of course that is one of the things we want to discuss this 
morning.
    Regretfully, after 4 years of service, Dr. Skorton will be 
leaving this post in mid-June to lead another organization, but 
Dr. Skorton, on behalf of the committee I want to thank you for 
your service. In order for the Smithsonian to carry out its 
charge as an establishment for the increase and diffusion of 
knowledge, there are challenges that have to be addressed, 
including the aging facilities and a $737 million deferred 
maintenance backlog that you will probably want to talk about 
some today. Additionally, the lack of storage space for its 
continually growing collections.
    Finally, the Smithsonian like many other Federal agencies 
also needs to strengthen and secure its information technology 
infrastructure. I certainly look forward to discussing your 
accomplishments, but also the challenges that you see, and we 
see ahead for the Smithsonian. Dr. Skorton, if you want to go 
ahead and make your opening comments, this would be the time to 
do.

     OPENING STATEMENT OF DR. DAVID J. SKORTON, SECRETARY, 
            SMITHSONIAN INSTITUTION, WASHINGTON, DC

    Dr. Skorton. Thank you, Chairman Blunt, and Senator Cortez 
Masto, and Senator Fischer. It is a great honor to be here to 
discuss the state of the Smithsonian today and how I believe it 
can be an even more valued and effective resource for all 
Americans and the world in the years and decades to come.
    As the chairman mentioned, my time at the Smithsonian is 
coming to an end in June. For the past nearly 4 years I have 
been fortunate to head this uniquely American institution, and 
as the chairman said, the world's largest museum, education, 
and research complex. I know that the Smithsonian will have 
many more opportunities to serve the American public and to 
capitalize on the strengths of the museum's research centers, 
libraries, and education centers, if we avoid potential 
pitfalls ahead. The extent of the Smithsonian's endeavor is 
really breathtaking. Our artistic, historical, cultural, 
scientific, and educational expertise, and programs, and 
collections are unparalleled.
    Throughout the world there is really nothing like the 
Smithsonian. It all starts of course with our people, the 
researchers, collections management, exhibition staff, 
curators, facilities' administrative staff, and of course, our 
visitors. Today I would like to focus on our facilities. Many 
of these facilities are National historic landmarks that in and 
of themselves are actually part of our collections, and these 
buildings are imbued with historic and architectural value. 
Just as importantly, our facilities are critical to the 
experience of our 30 million visits. Our buildings need to 
provide safety and shelter for tourists, researchers, and 
employees alike. They need to function in order to enable our 
programs, exhibitions, research, and scholarship, and they must 
protect and preserve our collections held within. These 
collections in the aggregate are the Nation's collective memory 
and the Nation's collective identity.
    At the Smithsonian, our buildings host millions of visitors 
each year, and each of these visitors, researchers, and staff 
relies on the facilities being operational and dependable. 
Thanks to you and your colleagues, and Congress's generosity, 
we have been able to begin, for example, a much needed 
revitalization of the National Air and Space Museum, the most 
visited museum in the United States.
    There is still however much to do beyond the Air and Space 
Museum given the backlog that the chairman mentioned, and our 
13.9 million square feet of leased and owned space, 
prioritizing the long-term care of these facilities is a sound 
and critical investment. Pennies spent on maintenance now can 
save dollars in the future. In their wisdom, Congress and the 
Administration have recognized the need for that investment and 
have supported steady increases to our maintenance throughout 
my time as Secretary. In fiscal 2020, the President's budget 
includes $84.5 million for our facilities' maintenance, which 
should be an increase of 6 percent above the enacted fiscal 19 
level of roughly $80 million. We are committed to continuing on 
this path toward a more sustainable level of care to our 
physical facilities, and thankful, very thankful, that you all 
and your colleagues have stood by us in this effort. In a short 
time, as was mentioned, our leadership will change, but our 
challenges will remain.
    In the coming years it will be important not only to build 
on the progress we have made with your help, but to accelerate 
it. Our facilities are essential to the foundation on which our 
reputation was built and upon which our future success relies. 
Our growing maintenance backlog impedes that future in a number 
of ways. It requires us to react to maintenance problems 
instead of proactively maintaining assets. It forestalls our 
ability to take on ambitious projects proposed to Congress like 
new museums. It hinders our ability to preserve our ever-
expanding collections, the source of wonder and inspiration for 
our visitors that underpins much of the critical research that 
we do.
    Finally, it limits our ability to attract and retain our 
most under-appreciated resource which is our intellectual 
capital. As my time comes to a close, I will be passing on to 
my successor the humbling responsibilities that come with 
leading this incredible organization. I will take many 
Smithsonian memories with me for the rest of my life but 
perhaps the most enduring, as the chairman mentioned, will be 
the opening of the National Museum of African American History 
and Culture. It embodies so much of what is special about our 
great American institution. It is a public square for Americans 
to have needed discussions about racial divisions and social 
inequities rooted in our shared values and experiences. The 
building itself, rising proudly on the National Mall in the 
heart of our Nation, symbolizes the strength that comes from 
diversity.
    I thank you for your continued support. The Congress 
enables the Smithsonian to remain a dynamic institution that 
can and will adapt to the ever-changing needs of the American 
people. It has been my great honor to serve as Secretary.
    Thank you.
    [The prepared Statement of Dr. Skorton was submitted for 
the record.]
    Chairman Blunt. Thank you, Secretary Skorton. I am glad--
again, we are glad you are here. I am sure there will be a time 
for multiple rounds of questions and there are lots of things 
that you brought up already and that we want to talk about that 
would be included in that. What would you think, as we approach 
this transition, you know, obviously transition planning, 
leave-taking is probably the hardest thing to do in leadership 
and I know you have given some thought to that.
    But what would you see is the three biggest challenges for 
the next Secretary of the Smithsonian, assuming that they will 
serve in some portion of a decade or so, how would that--how 
would you see those challenges laying out for the person that I 
know the Search committee hopes to have in place before you 
leave but anticipates that there will be some time without that 
top job being filled. What should that person be thinking 
about?
    Dr. Skorton. Thank you, Chairman. The first thing I want to 
say before I do answer a very important question that you asked 
is that the good news is that it is the people of the 
Smithsonian, the curators, the scientist, the researchers, the 
senior staff, some of whom you see sitting behind me, and the 
Board of Regents that are the glue that keeps the Smithsonian 
going. I have every confidence that those folks are going to 
make sure that any little ripples that might occur during the 
transition are smoothed out, and I have every confidence in the 
people who I just mentioned.
    I do want to emphasize the Board of Regents is, to my 
knowledge, a unique governance system comprising nine private 
citizen, six Members of the Congress, three from the House, 
three from the Senate, the Vice President of the United States, 
and our Chancellor is the Chief Justice of the Supreme Court. 
They have a long view of the Smithsonian, and they will assure 
that we do not miss a beat going forward. But having said that, 
three things I will mention in no particular order.
    One, because of the emphasis of my testimony, I am very 
concerned about the maintenance of the physical facilities. And 
of course every Federal agency has maintenance backlogs, and 
every place that I have worked in my career has had a 
maintenance backlog. I would never claim that we are unique, 
but I will say that the large press of American and 
international humanity that walks over our thresholds makes me 
concerned about their safety in the buildings. The animals at 
the National Zoo makes me concerned about their safety, and of 
course our staff and volunteers. We have that press of humanity 
that makes me very eager to follow the course that you all have 
set with us and that the President has recommended to continue 
to ratchet up the maintenance spending. So that is one.
    Every time a suggestion is made for a new facility, and all 
these suggestions have tremendous merit, we are faced with the 
idea, if we are already behind on maintenance, `how can we take 
on something that will eventually make us more behind?' So, I 
think it is a very important thing for the American people that 
working together we can find a way to close that gap as much as 
humanly possible. That is one. The second one is the issue of 
diversity, and diversity is a great strength of the United 
States as I mentioned. There is abundant academic research that 
shows that organizations and teams that are diverse make better 
decisions, do a better job, than teams that are not diverse. 
The cultural institution, industry if you will, and museums, 
and yes, even the Smithsonian, we have a long way to go to 
increase diversity.
    We are making some progress. I am proud to tell you that in 
my time as Secretary, a fully 68 percent of our hires at the 
director level or above have been women or people of color, but 
we have a long way to go, and I think emphasizing diversity and 
diverse coverage in our public programs and exhibitions is 
enormously important. As our country becomes more and more and 
more diverse, our programs need to become more and more and 
more diverse. So that is the second one that I would mention. 
Then the third one, which I think is very, very important as 
well, has to do with the mix of disciplines that we represent 
and operate at, if you will bear with me for a moment.
    I am a physician and a biomedical scientist, and I have 
spent my career in the STEM disciplines, science, technology, 
engineering, and math, but as the chairman knows, I am very, 
very devoted to the idea that the Arts and Humanities and 
Social Sciences are critical to our country solving our 
thorniest problems. Interacting with people understanding the 
sociology of our great country is a way of solving problems 
that is necessary beyond the strict benefits of science. One of 
the enormous attributes of the Smithsonian is that we do 
everything from Astrophysics to Art History. We run the largest 
astrophysics group in the country in Cambridge Massachusetts 
with Harvard University. Then we have an enormous pool of art 
historians and others in the Arts and Humanities.
    Focusing on the breath as well as the depth in any one area 
is a challenge. It is a challenge at the Smithsonian. My 
predecessors have shown me the way to do that, and if I have 
accomplished anything at all in that regard, please take this 
as sincere, I have done it by following what Dillon Ripley did, 
what Wayne Clough did, what people who came before me did. I 
hope that the next leadership will see that as one of the great 
strengths, the combination of diversity, intellectual 
diversity, ethnic diversity on the one hand, and diversity of 
what we study and show the American public on the other hand.
    Chairman Blunt. Thank you. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Chairman Blunt. Doctor, 
thank you. Thank you for not only your service, I want to thank 
the staff. Incredible people that work at the Smithsonian along 
with the Board. You know, I am from Nevada, a Western State. It 
is always a treat and a unique opportunity when we get to 
travel to Washington and walk into the Smithsonian, any one of 
the buildings, for free and see the incredible history. It is 
very exciting for us, so thank you for all of the good work.
    Doctor, you touched on really three issues and areas that I 
wanted to followup with you on, the first being the diversity. 
I so appreciate your comments there. I know, and I know you are 
familiar with this, I think it was in September 2018, UCLA 
published a report evaluating the Latino representation within 
the Smithsonian. I think right now there is what, a 5 percent 
of the employees are represented as Latinos and 6 percent Asian 
Americans. Have you put anything in place or any policies or 
protocols to increase that diversity when it comes to staffing, 
and particularly staffing in leadership positions in the 
Smithsonian? If you would talk a little bit about that, that 
would be great.
    Dr. Skorton. Thank you, Senator Cortez Masto. We have a 
long way to go with the Smithsonian regarding every ethnic 
group, and beyond the ethnic groups in terms of gender 
diversity and every other way. As I mentioned, and I do not 
want to repeat this too much, we have made some progress at the 
director level and above.
    As I mentioned, two-thirds of our hires have been women or 
people of color, but that does not hide the fact that we have a 
long way to go. The UCLA report, like the report that we 
commissioned, 20 years ago of this, the report that ended up 
having a title of willful neglect, showed us a big problem that 
has not been entirely solved. With all respect to my colleagues 
at UCLA, and I am UCLA person, there were some very helpful 
things in that report and unfortunately there were some things 
that were inaccurate.
    For example, the amount of funds that they say we are 
spending, they say it is still $1 million. It is actually $2.5 
million. In the new year, we hope it will be $2.7 million and a 
bit more, but I do not want to argue about the fact that we 
need to do better. In terms--so that is in terms of the people 
aspect. In terms of trying to diversify an organization, a non-
profit that is decentralized like the Smithsonian, in my 
earlier career I have tried many different expedience to do 
that. Many of them failed, and we are trying something new at 
the Smithsonian and it is too new to tell you whether it will 
rise or fall, but what I am doing is making the leadership 
accountable for two aspects of diversity.
    First, I have asked the Board of Regents to judge me every 
year in part based on two aspects of diversity, the composition 
of the institution, and the climate of the institution. As you 
all know, and I feel foolish saying this to you because you are 
so aware of it but I will say it, that you can recruit all you 
want but if the climate of the institution is not one that 
allows someone from a group not well represented to feel safe 
and to feel the likelihood of success, then they will not stay 
and retention rates will fall and fall and fall. So, I have 
that as part of my job evaluation. The people, the nine people, 
who report to me at the top of the institution, so to speak, 
have that in their evaluations, and the provost, the Chief sort 
of Content Officer, or the person to whom the museum Directors 
report and the Research Center Directors report, he has charged 
each of them in their evaluations for being accountable for 
these two aspects of diversity. I do believe over the years 
that that direct accountability will yield benefits, but 
honestly it is too soon to say whether that is actually going 
to work.
    The last aspect I want to make a very important comment on, 
specifically about the Hispanic and Latino programming, is 
separate from the leadership and separate from the rank-and-
file staff and researchers and curators, the programs 
themselves have to reflect the growing diversity of America. I 
want to, I take no credit for what I am about to say now 
whatsoever, but since 1997 when the Smithsonian Latino Center 
was established, they have done an enormously, enormously 
effective job of increasing the coverage of culture, and 
science, and history, and other aspects related to the Latino 
and Latina experience. You may know the happy news that we have 
been able to establish a Latino Gallery, and a thanks to the 
family of the late C. David Molina, a physician in California, 
who developed a very prominent health care enterprise. The 
family has given us a wonderful $10 million leadership gift.
    So, we will have in the National Museum of American History 
the first physical space to cover Latino issues ever on the 
National Mall of the United States. I am thrilled and grateful 
to the Molina family because they allowed us to put wind in our 
sails to go forward, and I am especially thrilled that it will 
be in American history for two reasons Senator. One is that the 
fabulous foot traffic, if you will, over 4 million visitors a 
year, is an amazing chance for us to have people as they walk 
by see the Latino Gallery and walk in there. Then the other end 
of it is that I believe having the Latino Gallery there will 
draw a lot of people who want to come and see that, and then 
will be able to enjoy many of the other wonders of the National 
Museum of American History. It is a job not finished yet. It is 
a job with a lot more to do, but I am very proud of my 
colleagues. I think we are making progress.
    Now there has been for several Congresses, the introduction 
of a bill to establish a National Museum of the American Latino 
and of course, if Congress in its wisdom decides to do that, we 
will work with Congress and make sure that this is a museum an 
American can be proud of. My orientation right now is that we 
need to find some equilibrium about our maintenance issues, and 
while we are figuring that out, we need to push ahead 
vigorously with the diversity increase that we have mentioned, 
with the Latino Gallery, but also with all the other programs 
at the Smithsonian Latino Center.
    I want to mention one other thing that is a National thing 
that that Center does. In addition to welcoming people to 
public programs and so on, the Latino Center for years and 
years has done its bit to train tomorrow's Latino leaders at 
various levels of their formal education. We have a very active 
group of alumni, if you will, who have been through some of the 
programs through the Smithsonian Latino Center, who are now 
beginning to populate the museum industry around the United 
States and begin to scratch the surface and make a difference 
throughout the country in covering these important areas.
    So, thank you for a very important question.
    Senator Cortez Masto. Thank you.
    Chairman Blunt. Senator let us just go back and forth for a 
little bit. I will take a few minutes then you can have a few 
more minutes. Dr. Skorton, as you mentioned, the organization 
is unique, the structure is unique, the reporting to Congress 
is unique, the way you get funding and some of your 
restrictions even on how you can get private funding. You came 
to this job with an incredible background of leadership but 
again, the job is unique. What are a couple of things you know 
now that you wish you had known then?
    Dr. Skorton. Okay. Thank you, chairman. Thank you for 
asking me a tough question. I appreciate it. The first thing is 
that--so I am just rounding third base on my fourth year, and I 
have to admit to you that it is a rare week that goes by that I 
do not learn something that I did not know about the 
Smithsonian. This year of calendar 2019 is the year of music, 
and you probably are both aware of this, but many people are 
not aware that we have a record label, a nonprofit record label 
in its 71st year. It is fabulous. We have won seven Grammy 
Awards.
    One thing that is a challenge is how various and variegated 
is the Smithsonian institution. Because of that variation, 
everything as I said from Astrophysics to Art History--you 
cannot run the Smithsonian as if it is a narrower kind of 
organization. Being College President, as you well know from 
your own experience as University President, has its own 
challenges but there is a common core of education that is the 
heart and soul of a college or university even though there is 
research, and athletics, and many other things.
    The Smithsonian is so various, it almost defies comparison 
with anything else. One thing that I wish I knew when I came 
was to have many more healthy helpings of humility about how 
little I would know about the organization, and with respect to 
whoever follows me in this fabulous job, whatever she or he has 
as a background, they will also know sort of this much about 
the Smithsonian where there is this much to learn. That is one 
thing that I wish I would have known.
    A second thing is that I have a long history of working on 
issues with which I have had the honor of interacting with the 
U.S. Congress and the executive branch, and even legislative 
branch, in the higher education sphere and in the research 
sphere. I was not aware of the extent to which I would have to 
understand the complexities of running an organization that is 
at one time a quasi-Federal organization and at the same time, 
if you will, sort of a non-profit, a private nonprofit. We are 
a trusted instrumentality as you well know it. It is sort of an 
unusual organizational setup, and I think had I been aware of 
the complexities of that, I would have availed myself of even 
more tutoring, if I can use that term, and I have had enormous 
tutoring, again, from these folks over my right shoulder. To 
this day they are trying to bring me up to speed, right up to 
about 5 minutes before the hearing started today. So that is a 
very important thing.
    Then the last thing I would say is the fact that we can 
open our doors and accept tens of millions of people crossing 
our threshold, as the Senator said, free which is so fabulous, 
gives us this enormous responsibility not only to take care of 
the facilities, but to recognize that that visitor experience 
is the currency by which you would judge how we are serving the 
American people. In serving the American people who cross those 
thresholds, we have to serve those who have trouble seeing the 
exhibits, who have trouble hearing audio, who have trouble 
getting up a couple of steps, something that I have learned 
about in a temporary way with this injury. Part of our 
diversity work is also working on accessibility issues related 
to the organization. I wish I would have known before I came 
how much of a challenge that would be because of the, I believe 
it is fair to say, unprecedented and unmatched amount of 
visitors that we accept in.
    Those are just some of the things, Senator, that I wish I 
would have known. Of course, I will be at the service of the 
Board of Regents and the new Secretary long after I am gone. I 
will just be across town and very willing to tell them all the 
things I wish I knew some 4 years ago. So, thanks for a great 
question.
    Chairman Blunt. That was a great answer, and hopefully your 
successor will look at it and think about it, and benefit from 
having that look back at what you would have known. Senator.
    Senator Cortez Masto. Thank you. So, Doctor, the 
maintenance backlog. Let us talk a little bit more about that. 
Did I hear you correctly, $84.5 million was requested to 
address the maintenance backlog which is a 6 percent increase 
from the previous budget. Is that correct?
    Dr. Skorton. Yes.
    Senator Cortez Masto. Is that in total what you need to 
address the backlog?
    Dr. Skorton. Well, Senator it is a complicated answer so 
please, if you would bear with me----
    Senator Cortez Masto. Yes. If you would--and breakdown for 
this because I know there is always an ongoing cost from 
maintenance.
    Dr. Skorton. Right.
    Senator Cortez Masto. That is different than what we need 
for the backlog. If you could break that down, that would be 
helpful.
    Dr. Skorton. Sure. I would love to give you the context. 
Thank you so much for asking for that detail, Senator. So, our 
backlog, as the chairman mentioned, is hundreds of millions of 
dollars actually approaching $1 billion of backlog. Now, 
forgive me for talking about such a thing as industry 
standards, but industry standards is to try to get somewhere 
between 2 and 4 percent of the replacement cost of the 
buildings in annual maintenance expenditures.
    Now our replacement cost of our buildings is roughly $8 
billion, and I want to hasten to emphasize a detail Senator, 
that that is not a sort of a blue book value, so to speak. It 
is what it would cost to actually replace those buildings, $8 
billion. So, if you multiply that times 2 to 4 percent, you end 
up somewhere between, you know, $160 and $320 million. Now 
let's be optimistic and say we do get the $84.5 million, that 
is going to be a little less than 1 percent or about 1 
percent--call it 1 percent. So, it will be an increase and I 
would never be anything but enormously grateful for any 
increase that we would have. To stabilize the maintenance so 
that we do not continue to grow the backlog, will be somewhere 
between 2.3 and 2.4 percent of that $8 billion.
    To begin to make progress on reducing the backlog, in other 
words not just stay in equilibrium and not grow the backlog, 
but to begin to reduce it, we have to go above that 2.3, 2.4 
percent. We have estimated obviously, you know, somewhat as an 
estimate, that a 3 percent goal would be terrific. Now i'm 
naive about a lot of things. I am not naive about saying that 
to change our maintenance budget to $240 million a year which 
would be 3 percent of $8 billion is a heavy lift for a country 
where there are so many competing demands.
    That is why, as I mentioned in my testimony, oral 
statement, that I am so grateful that you all, during the time 
that I have been Secretary, have helped us to move slowly up 
that hill, but I do believe that eventually we are going to 
have to work with you all and your staff to begin to accelerate 
that rate of increase.
    Senator Cortez Masto. Even at 3 percent, what is the 
timeframe to cover the backlog? I mean----
    Dr. Skorton. Well it is going to take me to take a while, 
and I want--I know I am being sort of long-winded. I am not 
trying to run the clock down. I just want to make sure I give 
you the context----
    Senator Cortez Masto. Listen, it is only the two of us. We 
have plenty of time.
    Dr. Skorton. Well that is alright. That is alright. You 
know, it is March madness so wearing down the clock could be a 
cool thing anyway. But I do want to say that, again please 
forgive me for being redundant, I am endlessly grateful for the 
increase the President put in his budget and hopefully will 
realize this year, but one of these days, for example, the 
castle, the oldest building, the iconic, if you will, 
Smithsonian building from which President Lincoln surveyed the 
Confederate troops from that tall tower. One of these days that 
building is going to fail catastrophically, and we will have 
problems.
    What we do, what our maintenance professionals do with 
deciding where to put those precious dollars, that $80 million 
hopefully plus dollars, is they break it into five different 
sort of segments of how urgent it is to do something. The most 
urgent segment being, if you do not do something there is an 
immediate risk of harm to people or to collections, and the 
fifth says you have, you know, maybe 7 to 10 years to do 
something.
    The longer we wait, Senator, the more buildings begin to 
move up toward that more urgent end. Should you have time 
afterwards, in addition to some of our treasures from the 
collection, we also have some other things that I might not 
call treasures, which are examples of some of our maintenance 
challenges.
    Senator Cortez Masto. I know, I noticed. I am glad you 
mentioned that because I noticed you brought with you some 
artifacts and some art it looks like, predominantly from 
Missouri. Is there a connection here?
    [Laughter.]
    Dr. Skorton. My Chief of Staff told me if such a question 
came up that I should talk about something else.
    [Laughter.]
    Chairman Blunt. That is one of the great coincidences----
    Senator Cortez Masto. Oh, I see.
    Chairman Blunt. What is the--this is not your 
appropriations hearing so I do not want to go into a lot of 
depth on that topic. But what is the revitalization amount that 
you asked for every year, which is I actually think that 
Congress has been pretty generous on that item, and what is 
that money for?
    Dr. Skorton. It is fabulous. The National Air and Space 
Museum opened in 1976. Opened with the idea that we would in 
equilibrium have about 2.5 million visitors a year. The first 
year, we nearly doubled that and then we now have over 7 
million visitors a year. So, the systems are worn out. 
Secondly, because of some construction ideas that did not turn 
out to be perfect, the cladding, the marble on the outside of 
the building is beginning to warp and needs to be replaced.
    So, between replacing the systems, which we have known for 
years we have to replace because of the dramatic, dramatic 
visitorship, and between the somewhat surprising problem with 
the cladding, with the marble, we actually have to give America 
basically a new National Air and Space Museum.
    Our estimates both our professionals and external 
consultations that we did at the time suggested that to do it 
right would be a $900 million project. That about $250 million 
of that would be money that we would raise philanthropically, 
Mr. Chairman, to redo all 23 galleries of the National Air and 
Space Museum, and $650 million we hoped would be the 
contribution, enormous contribution of the taxpayer. You all 
have been unbelievably generous, just as you mentioned. You 
have used just the right word chairman. We are right on track. 
The project is on track and on budget, and you have been 
stalwart in that. Roughly $460 million has been committed to it 
by Congress to the current year that we are in right now, the 
enacted Fiscal Year 2019 budget, leaving us with $190 million 
that presumably a $100 in the next Fiscal Year and $90 in the 
last fiscal year.
    As you know by walking by the Air and Space or driving by 
it, we are at work right now. The museum will be open the whole 
time, but half of it will be closed for construction while the 
other half is being open and then vice versa. I want to thank 
you for something else that you have done for us. In order to 
deal with the precious artifacts that have to be put somewhere 
else during the revitalization and then long afterwards, you 
have given us funds to build a storage module out by Dulles. 
After the revitalization is over, that will still allow us 
enormous flexibility for continued collection storage.
    I do want to emphasize if I might, I know it is a bit of a 
digression so please forgive me. The collection storage is 
another maintenance issue that we have quite separate and above 
and beyond the maintenance of those parts of the buildings 
where the people work. The collections, as you mentioned, you 
got the number exactly right, 155 million objects and 
specimens, is the completely irreplaceable part of the 
Smithsonian. We need to make sure that we are holding those 
collections, this is the collections of the United States of 
America, in conditions in which we know they will be there for 
the next generation and the next generation and the next 
generation, and we have some real issues there.
    We have about 2.1 million square feet of collection storage 
all together, and we need to do something about roughly a 
million of those square feet, either replacement or, if you 
will to use your word, revitalization. I thank you on behalf of 
the Smithsonian for helping us begin to make a dent in what we 
have as a collection storage master plan.
    Chairman Blunt. With all those numbers that we just went 
through that--your maintenance backlog number again for the 
record is what?
    Dr. Skorton. Approaching $1 billion.
    Chairman Blunt. Senator Cortez Masto.
    Senator Cortez Masto. Let me change subjects a little bit. 
Doctor, the strategic plan that was launched in 2017 includes 
technology as one of the means to expand the reach of the 
Smithsonian. As part of that goal, there is the idea of 
creating a research and development and testing lab designed to 
create and evaluate new applications and other technologies 
that will enhance the visitors' experience at the Smithsonian 
and museums all over the world. I just want to say I appreciate 
that the Smithsonian is establishing leadership in this area. 
In advancing museum related technology. Can you tell us a 
little bit more about that and how it is progressing?
    Dr. Skorton. Yes. Thank you very much. It is very, very 
important that we serve everybody, not just the lucky few, so 
to speak, who can come across our threshold. I want to say in 
passing that we have 214 affiliate museums in 46 states, and 
Panama, and Puerto Rico.
    Those are locally owned and operated museums and other 
facilities who bare our imprimatur and who work with us. They 
help us and we help them. We also have the Smithsonian 
Institution Traveling Exhibition Service, and we have a subset 
of that service, Senator, called Museums on Main Street, MoMS. 
I love that acronym. We take things out to communities around 
the country with a median population of 8,000. The smallest 
community so far had a population of 845. I am a corny 
individual, but I love, almost brings tears to my eyes, to 
think that we are taking some from the Smithsonian to a 
community of 845 people and they get to enjoy some of this 
magic without having to get to Washington, which a lot of folks 
cannot afford to do.
    The other way of getting there is through technology. We 
have websites. We have a social media presence, and so on. Over 
my shoulder is Julissa Marenco, who is our Assistant Secretary 
for Communications and External Affairs. Julissa and many other 
leaders are bringing us quickly into the 21st century by 
utilizing technology better. One thing that we have discovered, 
this will come as a big shock, is that we do not know 
everything at the Smithsonian. Because we realize we do not 
know everything, we are also working with partners, industry 
partners, and recently we had the honor of kicking off a 
project with Google at the National Air and Space Museum 
through the Google Arts and Culture Initiative.
    We have found very gratifying interest in the tech industry 
of working with the Smithsonian. Why? Because the brand, if you 
will, of the Smithsonian is so stellar. People trust it. In an 
age where unfortunately Americans have lost certain trust in 
many kinds of institutions, museums and libraries and the 
Military tend to have high trust levels. We want to utilize 
that trust to work with industry, to learn from them, and to do 
things together. I want to give you a great example of that.
    This year is the 50th anniversary of the magnificent 
landing on the moon, and we have as part of the collection at 
the National Air and Space Museum, the command module that was, 
you know, up there while the astronauts went down and touched 
on the moon's surface. You may or may not recall that the year 
after the actual moon landing, NASA, the National Aeronautics 
and Space Administration, took that capsule on a sort of a 
victory lap around America so everybody could have, you know, a 
chance to sort of be near that capsule.
    Senator Cortez Masto. I think I was six.
    Dr. Skorton. Sorry?
    Senator Cortez Masto. I said I think I was six when that 
occurred. I do not really recall that. I do recall the landing 
though.
    Dr. Skorton. Unfortunately, I was not six when it happened.
    [Laughter.]
    Dr. Skorton. I was 20. I was 19 that year. By the way, when 
I was 19 I also thought I knew everything, but that lesson 
comes hard. But anyway, we are doing a mini, micro version of 
that, Senator, and we are sending it around to a few of our 
affiliates.
    One of the things that we realized is that we want America 
to be able to enjoy that capsule without having to get close to 
it. So, we work with a company called the Autodesk, a computer 
aided design company and did an inside the capsule and outside 
the capsule three-dimensional scan so that we could buildup 
what computer people call a three-dimensional data structure, 
which then can be turned into an image that can be sliced, and 
diced, and rotated in 3D. Believe it or not, those folks, those 
geniuses who did that, our geniuses and the geniuses at 
Autodesk, found something that history had forgotten, some 
scribbles on the inside of the capsule by the astronauts while 
they were up there. How exciting that anybody can get access to 
those imagery. That is another example, besides our inside 
talent, how we are working with partners to learn what we can 
from the tech industry as a way to spread the wealth more 
broadly. So, it is a very, very important effort and we have a 
long way to go but we are making some terrific progress.
    Senator Cortez Masto. That is exciting. Thank you. Thank 
you again for all the good work that you have done.
    Dr. Skorton. Thank you, Senator.
    Chairman Blunt. So, Secretary--in an impressive way raised 
almost $2 billion from 500,000 donors. Will any of that money 
go toward deferred maintenance?
    Dr. Skorton. First chairman let me say this as strongly as 
I possibly can, I take very little credit for that campaign. 
Wayne Clough, my predecessor, got that going. Had the courage 
to aim really high along with the people in our Office of 
Advancement and the Board of Regents. I sort of went from third 
base to home on that. So, I want to for the record say that 
this was--I just sort of did some of the cleanup at the end. 
But it was an amazing, amazing process. Almost $2 billion 
dollars.
    Most of that money, as any fundraising, as you all know 
very well, goes to a restricted purpose. So those funds went 
for things that are restricted. Some of them did go for 
facilities type things, but usually a person of whatever means 
will give something for a facility because of wanting to make 
some improvement in some area, like an exhibition, a gallery, 
something like that. In my experience, and I would never 
pretend that this is gospel, but in my experience it is 
relatively hard to get philanthropic support for real basic 
infrastructure.
    Not to be facetious but it is hard to get someone to help 
us replace an HVAC implement. Now that does not mean you should 
not try. That does not mean when someone gives us money to name 
a portion of a building that we should not try and ask her or 
him to help us with maintenance, but the big broad-shouldered 
maintenance that has to occur everyday, sometimes every hour, I 
think it is not reasonable to think we could get that from 
philanthropy. I also want to say that opening a magnificent 
museum requires not only the place, requires not only the 
people who are the geniuses who make it possible to show the 
public what we have, and teach, and inspire, it also requires 
excellent professional security staff. It also requires a lot 
of other kinds of worker, and those are all part of the 
infrastructure of a running a museum, and those are also very, 
very hard. Now those are not counted in the strict maintenance 
backlog that we are mentioning, but those are all a part of 
what needs to be done with, I believe with all respect, with 
Federal support.
    So, I think that we continue to be grateful. We continue to 
show you value for the dollars that you are investing in us and 
show you that we are not wasting the dollars and we are not 
being silly about how we prioritize maintenance, but I hope as 
time goes on, and perhaps you consider infrastructure spending 
in a general sense, that you will think about this little 
corner of America as a place that could use a little more help.
    Chairman Blunt. The parking facility at the zoo. I think we 
approved that on your recommendation and about a month later 
you decided not to do it. Now I am not in favor of doing things 
that you see flaws in that you did not see to start with, so I 
do not mean for this to be critical, but that was a fairly big 
decision on the part of you to ask for it in the Congress to do 
it. What was--is there a minute-and-a-half version of why that 
did not work out?
    Dr. Skorton. Sure. Let me take the first 15 seconds of a 
minute and a half to say that I think a critical piece of 
leadership is to realize when you have to change course and not 
to, you know, stubbornly pursue something that just does not 
make sense. We had a turnover in leadership. We had a turnover 
in thinking about it and in reassessing the idea.
    Chairman Blunt. You mean leadership at the at the zoo?
    Dr. Skorton. At the zoo.
    Chairman Blunt. Okay.
    Dr. Skorton. Also, just sort of thinking about it at the 
top of the organization. Any change in leadership is a chance 
to look at something a fresh, and nothing wrong with the first 
idea but on balance, we decided, I decided after listening to 
the new leadership and sort of reassessing it, that maybe it 
was not the best use of funds right now. That is basically what 
happened. The original idea of needing more parking and wanting 
to free up space that is currently being used for surface 
parking was still a good idea, but prioritizing all the things 
we need to do, we just decided it wasn't the highest priority.
    Chairman Blunt. Well there is no reason to pursue a 
priority that you decide should not be the top priority. I do 
not disagree with that. Senator, I know you have to leave in a 
little bit. Do you have another question?
    Senator Cortez Masto. One more. I know, Doctor, realizing 
the sensitivity of security initiatives, are you able to 
provide us with an update on the development of the strategic 
plan for security? I know there was a report on that 
previously.
    Dr. Skorton. Thank you, Senator. Security is a massive 
moving target in the world right now. Security for the 
Smithsonian breaks into various different categories. I will 
make this as quick as I can because I do not want to waste your 
time, and you have a lot to do today.
    First of all, we have the physical security of the 
building. Unfortunately, we live in a time now where we have to 
take that more seriously, and we are asking for some help, 
additional help, in the 2020 budget to increase security, some 
increases that we would have hoped to have gotten in days going 
by and some increases that are more new.
    I want to tell you that I am very, very grateful that you 
have been able to help us with security at the National Museum 
of African American History and Culture. We do think we need 
more help than that. It also has to do with not just the 
quantity but the quality, and we are reassessing a lot of how 
we do the security, how the officers are trained, and so on, 
and that is all an ongoing effort. Then there is also of course 
cybersecurity which is massive. One of the things that I think 
is an important part of any organization is to audit how we are 
doing. We have the blessing of having an Inspector General.
    The Inspector General Office for the Smithsonian has helped 
us to keep our eye on the ball in terms of all those kind of 
security that I mentioned, physical security, training of 
people, and cybersecurity. Again, it is a moving target. We 
will never be done trying to fine tune that security, but we 
are well on our way. I want to say again, as we talked about 
perhaps 45 minutes ago, that the continuity that the Board of 
Regents supplies cannot be overemphasized in its importance. 
They are keeping my feet to the fire and will, I predict, keep 
my successor's feet to the fire to keep thinking about all 
these security issues, the whole gamut, from physical security 
to cybersecurity.
    Nothing is ever perfect in that domain as unfortunately we 
have learned, but we are doing well. I am proud of what we are 
doing, and I am proud of the fact that we are not satisfied.
    Chairman Blunt. Thank you, Senator, for your questions. I 
have about three more things to ask about, Secretary. One is on 
the information security front. I think one of the breaches was 
the information of who the donors were to the campaign. Am I 
right on that?
    Dr. Skorton. You know, I am going to have to get back to 
you, if you do not mind, to make sure I give you correct 
information. I wonder if I have exactly the breadth of that 
issue before I say something. It may not be correct. So, if you 
could bear with me, either later today or first thing tomorrow, 
we will give you chapter and verse on it.
    Chairman Blunt. Right. I think my information suggests that 
inadequate protection of the donors' personally identifiable 
information, and if that was a problem, it certainly is not a 
unique problem in the Federal Government. You know, we have had 
serious problems with this, and we have to deal with it 
Government-wide, but I think it is something that clearly you 
and your team have to pay attention to as we all do. There is 
way too much information out there without nearly enough 
thought as to how to protect it.
    Dr. Skorton. You bet.
    Chairman Blunt. Much of it given up way too voluntarily by 
the people that had it too and then not secured by others. On 
Air and Space, and then on the Fossil Hall Exhibit at the 
Natural History, what do you do to try to put information out 
to people coming to visit the Smithsonian of what might not be 
available that they would normally have expected, for instance, 
as some of that Air and Space collection has moved somewhere 
else while renovations are going on. How do you try to let 
people know that the thing they wanted to see and would 
normally be there, just might not be there when they come?
    Dr. Skorton. Well, I say this genuinely that as so often 
you have hit a really sensitive issue square on. This is an 
everyday issue for us not just because of the change in Air and 
Space and not just because of the imminent opening of Fossil 
Hall, but because we can only show a very tiny part of our 
collection any one time given the massive collection. The 
Directors at the individual museums try to do this. We have 
websites.
    One of the things that Assistant Secretary Marenco, and I, 
and others, and the museum Directors are working on is a way to 
get more information out to people so they can plan their visit 
because that is really what you are talking about, Mr. 
Chairman, is planning a visit. Actually, we are stepping back a 
couple steps and taking on the job of reassessing the whole 
visitor experience at the Smithsonian, and that will include 
what you are talking about, Mr. Chairman, but will not be 
limited to that. That we want to make sure that the visitor 
experience starts the day someone dreams about coming and 
continues after they have left our premises.
    One of the issues that we do run into is that not 
everything is available when they come, and even if it is 
available, how do you find it? Because people will sometimes, 
who are new to the Smithsonian, it is a great thrill to welcome 
someone who is new to the Smithsonian, they will think it sort 
of one place. You know, like where is the Smithsonian, and then 
they come and end up seeing that there is this big sprawling 
thing all over the place and even to New York City. We know 
that we need to do a better job of helping people plan their 
visits. We know that that is going to be done through 
technology largely, and through mobile technology at that.
    We are on the path to doing that but far from the goal. One 
of the aspects of that, as you have mentioned, is someone comes 
thinking they are going to be able to see x, but x has been 
moved because of construction, because of conservation of that 
entity. One of the difficult decisions that our curators make 
with the museum Directors to whom they report is what to have 
open to the American public. Some are there because of an 
actual exhibition on some topic, and then some are there 
because they are perennial favorites, like for example the 
first ladies' inaugural gowns is a sort of an evergreen 
exhibition people just love to see.
    Chairman Blunt. The last question I have for today and 
there will be other questions. The record will remain open for 
1 week. I am sure I will have some other questions and members 
who were not able to come to the hearing will have some 
questions, but what about facilities like the Panama facility 
that are not in the United States? How many of those are there, 
and is that the biggest one? What do you do with those 
facilities located in other countries?
    Dr. Skorton. So, we do research in 140 countries, and in 
most of those places we do not have permanent capital 
facilities. The Smithsonian Tropical Research Institute to 
which you referred in Panama is our big overseas permanent 
research footprint. It is a fabulous place. If you have not had 
a chance to go there, Mr. Chairman, we would be honored to 
arrange a visit for you if you ever wanted to do that.
    Those facilities are taken care of by a combination of 
local work, and work and expertise and advice from the 
facilities of professionals here in the United States. Anywhere 
we are a guest of the country, if you will, we believe it is 
important to also work with local experts in that area, 
maintaining the same standards that we do here. I might take 
the moment that you brought that up to mention that we are 
working on our first permanent exhibition space oversees. That 
is a research space, and that exhibition space will be 
partnering with the Victoria and Albert Museum in London, in 
East London.
    So, we work in a combination with locals and with the 
expertise of our professionals in our facilities. Mr. Chairman, 
we will get back to you right away on that campaign 
cybersecurity breach.
    Chairman Blunt. Alright. Well, thank you, Mr. Secretary. 
Thank you for the time you have spent today. As I said earlier, 
the record will be open for 1 week. We would like for you and 
your team to respond to any questions as quickly as you get 
them so that they can be put in that record.
    [The information referred to was submitted for the record.]
    Chairman Blunt. It was great hearing, and I appreciate it. 
I am going to come down and look at the randomly selected 
material from the Smithsonian before I leave. The hearing is 
adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
